U.S. Department of                                          The Inspector General             Office of Inspector General
Transportation                                                                                Washington, DC 20590
Office of the Secretary
of Transportation


January 15, 2009

The Honorable Patty Murray
Chairman, Subcommittee on Transportation,
 Housing and Urban Development, and Related Agencies
Committee on Appropriations
United States Senate
Washington, DC 20510

The Honorable James L. Oberstar
Chairman, Committee on Transportation and
 Infrastructure
United States House of Representatives
Washington, DC 20515

Dear Chairmen Murray and Oberstar,

This report is in response to your October 15, 2008, request that we examine the
Department of Transportation’s (DOT) and the Federal Aviation Administration’s
(FAA) actions regarding final rulemaking activities related to the auction of take-off
and landing slots at LaGuardia, John F. Kennedy (JFK), and Newark airports. We
briefed your offices on the preliminary results of our work in late November.

Reducing flight delays and congestion at the three New York airports is an important
issue facing the Nation. Because delays in the New York region affect flights across
the United States, FAA worked with the airlines to establish temporary flight caps at
JFK and Newark airports, effective March 30, 2008, and June 20, 2008, respectively.

The Secretary also established an Aviation Rulemaking Committee (ARC) to explore
ways to alleviate congestion in the New York area. The ARC identified 77 action
items, such as new take-off and landing procedures, to reduce delays. 1 In addition to
implementing these action items, FAA planned to auction up to 66 slots at the three
New York airports in January 2009. 2 According to FAA, the slot auctions would
1
    New York Aviation Rulemaking Report, issued on December 13, 2007.
2
    Carriers that acquired a slot would have the authority to conduct a single, scheduled operation, 7 days a week, during a
    specific 30-minute period. A scheduled operation is either the arrival or departure segment of any flight regularly
    conducted by an air carrier between the airport associated with the slot and another point regularly served by an air
    carrier.


CC-2009-016
                                                                                                                         2


allow for more efficient allocation of slots at the three airports, encourage new
entrants into the New York City area, and alleviate congestion by encouraging air
carriers to increase the size of aircraft flying into these airports.

However, some stakeholders have expressed concerns that the auctions will not
increase capacity but will instead result in higher airfares for consumers and reduced
service to small communities. In August 2008, the Air Transport Association and the
New York/New Jersey Port Authority filed suit in the U.S. Court of Appeals, claiming
that FAA lacked the statutory authority to conduct the auctions.

On September 30, 2008, the Government Accountability Office (GAO) issued a legal
opinion stating that FAA does not have the statutory authority to auction the slots.
Moreover, GAO warned that if FAA auctioned the slots and retained and used the
auction proceeds, it would violate the Antideficiency Act (the Act) 3 and the Purpose
Statute. 4

The Department disagreed with GAO and received an oral legal opinion from the
Department of Justice (DOJ) Office of Legal Counsel on October 3, 2008, which
stated that finalizing and implementing the slot auction rules would not violate the
Act. FAA then issued the final rules outlining its plan for auctioning slots at the three
airports on October 10, 2008.

Consistent with your request, we focused our review on two issues related to the
rulemaking activities. First, in light of the GAO opinion, did FAA and DOT actions
constitute a willful violation of the Antideficiency Act and Purpose Statute? Second,
were career FAA and DOT staff coerced, compelled, or otherwise required by their
supervisors to knowingly engage in illegal conduct?

To address these questions, our investigators, auditors, and legal staff interviewed
16 high-level FAA and DOT officials to determine how the policy debate and
rulemaking evolved. The officials we interviewed are listed at exhibit A. We also
reviewed e-mails and other communications within the Department, examined
internal documents, and gathered information related to contracts and expenditures in
support of various rulemaking initiatives and the slot auctions. 5 Exhibit B further
details our objectives, scope, and methodology.



3
    31 U.S.C § 1341(a)(1)(A).
4
    31 U.S.C § 1301(a).
5
    We requested communications between the Department and outside entities, such as the Office of Management and
    Budget, the Departments of Treasury and Justice, and the White House. The Department advised us that it could not
    release those communications to us without clearance from these outside entities. Based on our interviews and review of
    the internal documents, we concluded that a review of external communications would not affect our findings. As a
    result, we decided not to delay publishing our report while waiting for these communications.




CC-2009-016
                                                                                     3


Summary of Results
Since we began our review, the U.S. Court of Appeals issued a stay on
December 8, 2008, forcing FAA to indefinitely postpone plans for auctioning slots at
the New York airports pending further judicial review. The court will likely decide a
number of controversial and important questions, including whether FAA has the
statutory authority to auction slots. The following summarizes our findings:

 • Before GAO issued its legal opinion in September, there were no serious
   disagreements between FAA and DOT about how to move forward with the slot
   auction rules. However, after GAO issued the opinion, FAA officials were
   concerned that finalizing the rules could result in an Antideficiency Act violation.
   FAA decided that it would not finalize the rules unless it received a legal opinion
   from outside the Department stating that signing the rules would not violate the
   Antideficiency Act. This position raised concerns within DOT that the auctions
   would be delayed and created considerable tension between FAA and DOT.

 • In light of the DOJ opinion, FAA’s actions regarding the slot auctions do not
   constitute a willful violation of the Antideficiency Act. Because of this opinion,
   Agency officials can demonstrate a good faith belief that what they were doing
   was lawful, which is a valid defense against a charge that they willfully violated
   the Act.

 • While FAA’s actions do not represent a willful violation of the Antideficiency
   Act, even non-willful violations are serious matters. If it is determined that
   finalizing and implementing the rules violated the Antideficiency Act, FAA must
   report the violation to Congress as well as the personnel actions taken against
   those principally responsible for the violation.

 • Three legal issues will determine if the Agency’s actions represent a violation of
   the Act: (1) Are slots real or personal property that FAA can sell pursuant to its
   property acquisition and disposition authority? (2) Does auctioning slots amount to
   the imposition of a “user fee?” (3) Is the Antideficiency Act violated if slots are
   neither property nor user fees?

 • On October 2, 2008, two teleconferences took place between high-level FAA and
   DOT officials, including its General Counsel, regarding FAA’s request for an
   outside legal opinion. Debate was vigorous, at times contentious, regarding the
   penalties for violating the Antideficiency Act and FAA’s request for an outside
   opinion. At one point, the Secretary questioned whether the FAA attorneys’
   unwillingness to defer to the DOT General Counsel’s legal judgment amounted to
   insubordination. The Secretary confirmed that she raised this question because
   she believed the FAA attorneys should have deferred to the DOT General



CC-2009-016
                                                                                                                        4


      Counsel’s legal opinion, which stated that proceeding with the auctions would not
      result in an Antideficiency Act violation.

    • On October 3, 2008, DOT officials contacted both the Office of Management and
      Budget (OMB) and DOJ about providing a legal opinion. A DOJ attorney
      provided an oral legal opinion and promised to provide it in writing the following
      week. Based on this information, the FAA attorneys told the Acting FAA
      Administrator he could sign the final rules, which he did that day.

    • While FAA staff felt considerable pressure from the Department, they told us that
      they were not coerced or otherwise compelled to agree with the decision to sign
      the final rules for the slot auctions.

FAA’s and DOT’s Actions Do Not Constitute a Willful Violation of the
Antideficiency Act and Purpose Statute, but Legal Issues Remain To Be
Resolved
GAO’s September 2008 legal opinion raised significant concerns as to whether slot
auctions for the New York airports would violate provisions of the Antideficiency Act
and the Purpose Statute. It is our view that FAA’s actions regarding the slot auctions
do not constitute a willful violation of the Antideficiency Act, but whether there is a
violation of the Act depends on three interrelated legal issues.

We note that even if Antideficiency Act violations are non-willful, they are still
serious matters and can lead to administrative sanctions.6 If it is determined that
finalizing and implementing the rules violated the Antideficiency Act, then the
Department must report the violation to the President and Congress with a description
of any personnel actions taken against those principally responsible for the violation.

    • The Antideficiency Act prohibits Federal employees from making or authorizing
      expenditures exceeding the amounts appropriated by Congress. This can occur in
      two different ways—when an agency overspends an appropriations account or
      when an agency expends funds in contravention of a specific congressional
      prohibition.

    • The Purpose Statute requires that public funds be used only for the purpose for
      which they were appropriated by Congress. It is violated if charges are made to
      the wrong appropriation or if unauthorized charges are made to any appropriation.

With respect to the FAA rulemaking, a violation of the Antideficiency Act would also
violate the Purpose Statute. However, an Antideficiency Act violation causes much
6
    Antideficiency Act and Purpose Statute violations are serious because they provide an important control established by
    Congress to implement a constitutional provision supporting the separation of powers between the Executive and
    Legislative Branches: “No money shall be drawn from the Treasury but in consequence of appropriations made by Law.”
    Article I, Section 9.


CC-2009-016
                                                                                                          5


greater concern because, unlike the Purpose Statute, it provides penalties for those
employees held responsible. Willful violations of the Antideficiency Act are
particularly significant because they can subject the responsible Government officer
or employee to criminal prosecution. 7 Proof of willfulness, which is required for any
criminal prosecution of the Act, requires that a Government official take an action
with the knowledge that it is unlawful. A good faith belief, even if mistaken or
unwise, is a defense against a willful violation.

Before finalizing the rules, FAA received a legal opinion from DOJ in October 2008.
The opinion stated that FAA would not violate the Antideficiency Act by issuing and
implementing the slot auction regulations. This opinion precludes a finding of
willfulness because it provided FAA with support for a good faith belief that its
actions were lawful.

FAA’s Actions and Costs Incurred for the Slot Auction Effort
If a violation of the Antideficiency Act occurs, it is important to understand the range
of activities and expenditures that may be improper. Our review examined the key
actions FAA took and how much money has been spent to move forward with slot
auctions before and after GAO issued its legal opinion.

Our work shows that FAA’s Office of Aviation Policy and Plans has relied on three
contractors—GRA Inc., Beaujolais, and Power Auctions—to perform work associated
with analyzing the rules and with the auctions. This includes economic analysis in
support of the rules and development of an internet program to accept bids as well as
a separate program to evaluate bids and determine the winning bidders. As shown in
the figure below, as of December 2, 2008, FAA has obligated approximately
$1.25 million to the three contractors but has actually expended only a little more than
$200,000.
      Figure. FAA Obligations and Expenditures Related to Slot Auction Contractors
     Contractor                Description of Services             Amount        Amount      Balance
                                                                   Obligated    Expended
    GRA                Economic Analysis                            $199,924    ($135,146)     $64,778
    (Task 1)           Contract Awarded (Slots Mod) –1/29/08
    Beaujolais         Technical Assistance in Selecting an         $100,000     ($50,025)     $49,975
                       Auction Firm
                       Contract Awarded – 6/10/08
    GRA                Economic Analysis                            $142,445     ($32,453)    $109,992
    (Task 2)           Contract Awarded (Slots Mod) – 7/29/08
    Power              Pre-Auction Services and Auction             $808,000             -    $808,000
    Auctions           Execution
                       Contract Awarded – 9/24/08
                                                          Totals   $1,250,369   ($217,624)   $1,032,745

7
    31 U.S.C § 1350.


CC-2009-016
                                                                                                                     6


The majority of FAA’s investments for the slot auction initiatives occurred prior to
the signing of the final rules on October 3, 2008. Since then, it has only obligated
$170,000 and expended $6,000 towards the slot auctions. We understand that
contractors have performed additional work in fiscal year (FY) 2009 but have not yet
billed FAA. For example, Power Auctions has incurred about $625,000 in unbilled
charges related to conducting the auctions.

FAA has also incurred in-house costs related to the rulemaking activities. In
May 2008, FAA established a specific project code to capture slot auction labor
charges. As of November 22, 2008, labor charges applied to this project were
$55,190. However, according to FAA officials in the Office of Aviation Policy and
Plans, not all FAA employees involved with auctions are charging their time to this
project. We were unable to determine the labor charges before and after the GAO
opinion.

In addition, there were in-house labor charges before FAA established the slot auction
project code. These charges were captured under two project codes for general
rulemaking and other topics. Because of the generality of these codes, we were
unable to determine the specific slot auction labor charges associated with them.

The Decision on Whether Antideficiency Violations Occurred Depends on the
Resolution of Three Legal Issues
A final determination on whether Antideficiency Act violations occurred depends on
resolution of three interrelated legal issues: whether (1) slots are real or personal
property that FAA can sell pursuant to its property acquisition and disposition
authority, (2) a rule auctioning slots amounts to the imposition of a “user fee,” and (3)
there is an antideficiency violation if slots are neither property nor user fees.

FAA’s Use of Its Property Authority To Auction Slots: In its April 17, 2008,
Supplemental Notice of Proposed Rulemaking (SNPRM), FAA asserted it had the
authority to auction slots based on its property disposition authority.8 In support of its
arguments, FAA has argued the following points:

    • FAA has exclusive sovereignty over the navigable airspace and has broad
      authority to regulate its use.

    • FAA can lease intangible property and has the authority to dispose of property
      interests, including the power to dispose of its property via leases.




8
    In addition to the April 2008 SNPRM, FAA cites in its final rules that the airlines have treated slots as a form of
    intangible property and that the courts have acknowledged that navigable airspace is public property.


CC-2009-016
                                                                                           7


     • FAA has the authority to enter into and perform such contracts, leases, cooperative
       agreements, and other transactions as may be necessary to carry out the functions
       of the Administrator and the Administration. 9

In its final report, GAO rejects FAA’s argument that slot auctions fall within the
Agency’s property disposition authority. GAO states that the slots are not property
created as a result of FAA regulations but are FAA regulations in that slots provide
legal permission to conduct an act that otherwise would not be permitted. In this case,
the act is permitting an aircraft to take off or land at one of the three New York
airports. GAO also cites a number of arguments as to why it disagrees with FAA’s
analysis, including the following:

     • The term “property” in the FAA statute refers to traditional property. Otherwise,
       FAA has improperly been giving away potentially millions of dollars since
       creating slots in 1968.

     • Congress granted FAA authority to manage navigable airspace through its
       regulatory authority, not its property authority.

     • Granting FAA authority under its property disposition authority would interfere
       with congressional prerogatives to set programmatic spending levels and oversee
       agency activities.

     • It is unlikely in light of congressional restrictions on user fees that Congress
       intended to give FAA non-appropriation funding when it amended FAA’s
       property acquisition statute to include personal as well as real property. 10

     • The slots are analogous to the Louisiana video poker licenses that the Supreme
       Court ruled were not Government property. The Court held that issuance of the
       licenses involved the Government acting as a regulator, not as a property holder. 11

DOJ does not address whether slots fall within FAA’s property disposition authority,
asserting that it is not relevant to whether there is an antideficiency violation. Unless
the pending litigation is settled, the question of whether auctioning slots falls within
the FAA’s property disposition authority will likely be decided in Federal court. 12

Slot Auctions and the Imposition of User Fees: A key question is whether FAA’s
regulation for auctioning slots to the highest bidder is equivalent to establishing a new
user fee. FAA cited its property authority as basis for proceeding with the slot
auctions and does not believe these auctions would constitute a user fee.

9
     49 U.S.C. 106(l)(6) and 106(n).
10
     This authority was granted in the 1996 FAA Reauthorization Act.
11
     Cleveland v. United States, 531 U.S. 12 (2000).
12
     Congress could also clarify the extent of the FAA’s property disposition authority.


CC-2009-016
                                                                                                                            8


Since 1997, Congress has included language in FAA’s annual appropriations that
prohibits it from finalizing or implementing any regulation that would impose any
new aviation user fees without specific congressional authorization. The FY 2008
prohibition states, “None of the funds in this Act shall be available for the Federal
Aviation Administration to finalize or implement any regulation that would
promulgate new aviation user fees not specifically authorized by law after the date of
the enactment of this act.” 13

Because GAO concluded that slot auctions do not fall within FAA’s property
disposition authority, it opines that the only other possible authority is under FAA’s
ability to impose user fees. However, the appropriations language prohibits FAA
from implementing new aviation user fees.

Conversely, the DOJ opinion concludes that, regardless of whether FAA has the
statutory authority to issue the slot auction regulations, implementing those
regulations would not amount to a new user fee. DOJ notes that user fees are well-
defined, meaning that a user fee has to be based at least in part on the basis of cost to
the Government. Because the auctions are based on what the market will bear rather
than the Government’s cost, DOJ concludes that the auctions are not a user fee.

If the U.S. Court of Appeals concludes that the slot auctions are authorized under
FAA’s regulatory and property disposition authority, then there is no Antideficiency
Act violation. Even if the court concludes that FAA has no authority, it may not
decide the user fee issue since FAA does not rely upon that statutory authority as
justification for slot auctions. However, if the court concludes that slot auctions are
user fees, finalizing and implementing the regulations would then constitute a
violation of the Antideficiency Act. 14

Implications if Slots Are Not Property or User Fees: Another issue focuses on
what happens if FAA lacks authority to auction slots because the slots are determined
to be neither property nor user fees. GAO does not address this question because it
concludes that slots are user fees.

DOJ opines that even if Federal courts determine that slots are not property and FAA
lacks the authority to auction them, the slot auction regulations would not violate the
Antideficiency Act as long as FAA does not make expenditures in violation of a
condition set forth in an appropriations rider and its expenditures are consistent with
available appropriations. 15 While GAO did not address this issue in its opinion, on


13
     See Consolidated Appropriations Act of 2008, P.L. 110-161 (2007).
14
     The DOJ opinion acknowledges that if the rule creates a new user fee it would violate a specific appropriations provision
     and would therefore violate the Antideficiency Act.
15
     If the expenditures are not consistent with available appropriations, FAA would be exceeding the amount appropriated by
     Congress for those activities, which is zero. As FAA would be spending money intended for another purpose, this would
     also violate the Purpose Statute, but DOJ was not asked to address the Purpose Statute.


CC-2009-016
                                                                                      9


October 30, 2008, the Senate Appropriations Committee requested that GAO provide
a legal opinion on whether DOJ’s interpretation of the Antideficiency Act is accurate.

FAA’s Plan To Use Funds Generated by Slot Auctions Lacks Clarity
In addition to legal issues we examined, there are unresolved questions about how
FAA would use the funds generated by the slot auctions. FAA intends to use the
funds generated by the slot auctions to mitigate congestion and delays in the New
York City area. However, FAA has not stated if the funds will be used for capital
projects, operational purposes, airspace redesign projects, research and development,
or for demonstration projects with specific airspace users.

While money collected by Federal agencies is usually deposited in the Treasury’s
Miscellaneous Receipts Account, FAA is authorized under a specific statute to retain
these funds in a specific Treasury account. This account is currently used, among
other things, to collect overflight fees, which are specifically authorized by statute.
Consistent with FAA’s theory that the slots are property, the amounts collected at the
slot auction would be placed in this account.

The funds in this account may be used for any “congressionally authorized and
intended purposes” 16 and are available until they are spent without being subject to
the annual appropriations process. The only control placed on the account is that
FAA must annually report both actual and planned spending to congressional
oversight committees on the same day the President’s annual budget is submitted. 17

Basically, the funds generated by the auctions would provide FAA with a source of
revenue it did not previously have. We note that GAO cites this factor in arguing that
FAA lacks authority to conduct slot auctions. GAO stated that it is unlikely that
Congress intended for FAA to obtain this funding through a “back door” of general
property authority.

If the Federal courts determine that the slot auction was not authorized, any use of the
proceeds would likely constitute an augmentation of FAA funds, which is prohibited
by law. FAA officials told us that the auction proceeds will not be used for any
purpose until the litigation surrounding the slot auctions is resolved.

While There Was Vigorous and Sometimes Contentious Debate Between
High-Level DOT and FAA Officials, Officials Were Not Coerced,
Compelled, or Otherwise Required To Implement the Slot Auctions
Based on interviews with FAA and DOT officials and the documentation we
reviewed, we found no evidence that FAA personnel were coerced, compelled, or
otherwise required to agree with the decision to implement the slot auctions. FAA
16
     49 U.S.C. 45303(c)(2).
17
     49 U.S.C. 45303(d).


CC-2009-016
                                                                                   10


officials were under considerable pressure to move forward with auctioning slots
because it was a high-priority initiative with the Department and Administration, and
DOT officials wanted the first auction completed in January, before the current
Administration leaves office.

When the GAO issued its legal opinion on September 30, FAA officials expressed
concern that signing the final rules could expose FAA employees to criminal and
administrative sanctions for violating the Antideficiency Act and requested an outside
legal opinion prior to signing the rules. To address FAA’s concerns, high-level FAA
and DOT officials had several meetings on finalization of the rules. These
discussions produced vigorous, and at times contentious, debate regarding the
significance of the GAO opinion, the consequences for violating the Antideficiency
Act, and the need for an outside legal opinion. Ultimately, DOT agreed that an
outside legal opinion would be obtained before the Acting FAA Administrator signed
the final rules. Once FAA received an oral legal opinion from the DOJ, the Acting
FAA Administrator signed the final rules for the auctions.

The Slot Auctions Were a High Priority for the Department, and the Schedule
To Conduct the First Auction Was Very Aggressive: According to both FAA and
DOT officials, market-based solutions for alleviating congestion were a high priority
within the Department. For example, included in FAA’s 2007 reauthorization
proposal were provisions allowing for slot auctions at LaGuardia airport and a pilot
program at up to 15 additional airports for market-based solutions to alleviate
congestion. An overview of FAA’s and DOT’s actions in support of the slot auction
rulemaking is at exhibit C.

When it became clear that Congress would not pass FAA’s reauthorization proposal,
DOT and FAA began to look at other ways under its existing authority to implement
market-based solutions. In the spring of 2008, FAA issued two proposed rulemakings
that called for slot auctions at the three New York airports based on its property
disposition authority. However, because of the nature of the rulemaking process,
FAA and the Department were operating under a tight schedule to finalize the rules
and get them published in the Federal Register by the week of October 8. If the rules
were not published by that time, it would have been very difficult for FAA to conduct
the first auction in January before the departure of the current Administration.

The GAO Opinion Raised Significant Concerns at FAA About a Possible
Antideficiency Act Violation: FAA documents show that Agency officials were
concerned in early August 2008 about a number of risks related to moving forward
with slot auctions. One of their concerns was whether it would be an Antideficiency
Act violation to use appropriated funds for an auction expert contract, auction
services, regulatory analysis, and salaries for those who worked on finalizing the
rules. Officials we interviewed stated that while there were policy debates regarding
various aspects of the rulemaking, these debates were a normal part of the policy

CC-2009-016
                                                                                                                       11


development process. However, up until the point when GAO issued its opinion,
there were no serious disagreements between FAA and DOT on moving forward with
the slot auction rules.

Once GAO issued its opinion, senior FAA officials expressed concern that signing the
final rules for the slot auctions could expose FAA employees to criminal and
administrative sanctions for violating the Antideficiency Act. As a result, the Acting
FAA Administrator advised DOT that FAA would not sign the final rules unless he
received a legal opinion from outside DOT stating that proceeding with the rules
would not violate the Act.

There Was Vigorous and Contentious Debate on the Antideficiency Act and
FAA’s Desire To Obtain an Outside Legal Opinion: To address FAA’s concerns,
the DOT General Counsel arranged a telephone conference where the Acting FAA
Administrator and FAA Counsel could hear directly from DOJ and OMB
attorneys regarding their view that finalizing the rules would not amount to an
Antideficiency Act violation.

However, the teleconference, which occurred on October 2 at noon, did not proceed
as planned. First, the OMB representative unexpectedly did not participate in the
teleconference. Also, DOT attorneys expressed their view that the GAO opinion was
not binding on the Executive Branch and that an outside opinion was not necessary.
The Acting FAA Administrator, believing that DOT had already agreed to obtain an
outside opinion before he would sign the rules and that the DOT attorneys were
minimizing the significance of the GAO opinion, left the teleconference. Finally,
while the DOJ representative was supportive of DOT’s position, he did not make
these comments until the Acting FAA Administrator left the teleconference. As a
result, no progress was made towards finalizing the rules.

After the teleconference, the DOT General Counsel called OMB to seek a legal
opinion to satisfy FAA, but OMB indicated that it would defer to the DOT General
Counsel’s legal judgment regarding the application of the Antideficiency Act. The
General Counsel set up a second teleconference to avoid delay in signing the final
rules. This teleconference, which occurred at 6:30 p.m., included the Secretary,
Deputy Secretary, DOT General Counsel, DOT Chief of Staff, Acting FAA
Administrator, FAA Chief Counsel, and senior DOT and FAA attorneys.

From the outset of the teleconference, there was a vigorous debate between the FAA
and DOT attorneys, which at times became contentious. 18 The attorneys argued about
whether issuing the final rules would violate the Antideficiency Act and, if there was
a violation, the likelihood and severity of any sanctions directed at FAA employees.
DOT attorneys also stated that there had never been a prosecution or conviction for a
18
     The logistics of the teleconference were difficult because the Secretary and the DOT General Counsel were out of town,
     and two of the FAA attorneys, one of whom was the Chief Counsel, arrived late at the teleconference.


CC-2009-016
                                                                                                                    12


violation of the Antideficiency Act. Regardless of the penalties, FAA officials
remained concerned about violating the Antideficiency Act.

At that point, DOT officials offered suggestions to FAA officials so the Acting FAA
Administrator could sign the final rules without first obtaining an outside opinion.
For example, it was suggested that the Acting FAA Administrator could sign the final
rules and then withdraw them if an outside opinion was not obtained before the rules
were published in the Federal Register. DOT officials also expressed their view that
it is the DOT General Counsel that has the authority to decide whether finalizing the
rules constituted an Antideficiency Act violation and concluded that signing the rules
was not a violation of the Act.

FAA officials rejected these suggestions, and the FAA legal position remained that
the Acting FAA Administrator should not sign the final rules without an outside
opinion. An FAA attorney also pointed out that the Agency had independent
authority and quoted from the statute that provides the Administrator with the final
authority with regards to the Agency’s acquisition and maintenance of property and
rulemaking activities. Therefore, he stated that FAA did not have to follow DOT’s
direction.

The Secretary told us that she was concerned that FAA was unwilling to consider any
of DOT’s suggestions for moving forward with the rules. At one point, the Secretary
questioned whether the FAA attorneys’ unwillingness to defer to the DOT General
Counsel’s legal judgment amounted to insubordination. According to FAA and DOT
officials we interviewed, this question was not directed at a specific individual. The
Secretary told us that she used the word “insubordinate” because she believed FAA
attorneys should have deferred to the General Counsel’s legal opinion that proceeding
with the auctions would not result in an Antideficiency Act violation.

Following the insubordination question, FAA reiterated its legal position that the
Acting FAA Administrator should not sign the final rules without an outside legal
opinion. At this point, it became clear that the issue was not going to be resolved, and
the Secretary ended the teleconference.

FAA Received a Legal Opinion From DOJ and Finalized the Slot Auction Rules:
Within minutes of the end of the teleconference, the Secretary directed the DOT Chief
of Staff to find a way to address FAA’s concerns about signing the final rules. The
DOT Chief of Staff then asked the FAA representatives to provide, by the next
morning, a draft of a proposed opinion that would address FAA’s concerns, which
DOT could use to seek an outside opinion. 19



19
     Ultimately, this draft opinion was not used because DOJ provided an opinion based on its own legal analysis.


CC-2009-016
                                                                                    13


The next morning, DOT officials contacted both OMB and DOJ about providing a
legal opinion. A DOJ attorney agreed to provide a legal opinion and held a
teleconference with DOT and FAA Counsel. During the teleconference, the DOJ
attorney described the content of the opinion and promised to provide it in writing the
following week. Based on the teleconference, the FAA attorneys told the Acting
FAA Administrator he could sign the final rules, which he did that day.

FAA Officials Did Not Feel Coerced or Compelled To Sign the Rules: During our
review, we interviewed the FAA officials who participated in the two meetings
regarding finalizing the rules. While these officials felt considerable pressure from
the Department, they told us that they did not feel coerced or otherwise compelled to
agree with the decision to sign the final rules for the slot auctions.

Conclusion
The decision to move forward with auctioning slots at the New York airports has
proven to be a complex and controversial issue for the Department and FAA, given
congressional concerns, legal challenges, and stakeholder opposition. These issues
were amplified by concerns about statutory authority, Antideficiency Act violations,
and the fact that auctioning slots would not directly reduce delays. Many of the
questions about FAA’s authority to implement slot auctions will be decided by the
Federal courts.

How—and at what pace—to introduce market-based solutions for reducing
congestion in the National Airspace System is a policy question for the Congress and
the new Administration. There are opportunities to clarify FAA’s authority and the
best way to address congestion, including market-based solutions, as Congress
decides on how to finance aviation programs.

We provided Department officials with a draft of this report and made technical
adjustments where appropriate in response to their comments. The Department
concurred with both of our conclusions: that there was no willful violation of the
Antideficiency Act and Purpose Statute and that no career staff was coerced. We
appreciate the cooperation of the Department during this review. If I can answer any
questions or be of further assistance in this matter, please contact me at (202) 366-
1959 or my Deputy, Theodore P. Alves, at (202) 366-6767.


Sincerely,



Calvin L. Scovel III
Inspector General


CC-2009-016
                                                                                14



EXHIBIT A. LIST OF FAA AND DOT OFFICIALS INTERVIEWED
1. Nancy LoBue:         FAA Acting Assistant Administrator for Policy, Planning,
                        and Environment (October 20, 2008)

2. Rebecca MacPherson: FAA Assistant Chief Counsel for Regulations
                       (October 21, 2008)

3. Patricia McNall:     FAA Assistant Chief Counsel for Acquisitions and
                        Commercial Law (October 23 and November 10, 2008)

4. Jana Weir Murphy:    FAA Chief of Staff to the Acting Administrator
                        (October 25, 2008)

5. James Whitlow:       FAA Deputy Chief Counsel for Policy and Adjudication
                        (October 28, 2008)

6. Nan Shellabarger:    FAA Acting Deputy Assistant Administrator for Policy,
                        Planning, and Environment (October 29, 2008)

7. Kerry Long:          FAA Chief Counsel (November 3, 2008)

8. Terence Carlson:     DOT Deputy Assistant General Counsel for General Law
                        (November 5, 2008)

9. Melissa Burt:        DOT Counsel to the General Counsel (November 6, 2008)

10. Paul Geier:         DOT Assistant General Counsel for Litigation
                        (November 7, 2008)

11. Jeffrey Wharff:     FAA Senior Economic Advisor (November 13, 2008)

12. Quintin Kendall:    DOT Chief of Staff (November 14, 2008)

13. Robert Sturgell:    Acting FAA Administrator (November 14, 2008)

14. D.J. Gribbin:       DOT General Counsel (December 8, 2008)

15. Thomas Barrett:     DOT Deputy Secretary (December 10, 2008)

16. Mary Peters:        DOT Secretary (December 10, 2008)



CC-2009-016
                                                                                 15



EXHIBIT B. OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of our review were to determine whether (1) in light of the GAO
opinion, actions taken by FAA and DOT constituted a willful violation of the
Antideficiency Act and Purpose Statute and (2) career FAA and DOT staff were
coerced, compelled, or otherwise required by their supervisors to knowingly engage
in illegal conduct. We conducted this review in accordance with generally accepted
government auditing standards. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives.

To answer our objectives, we analyzed FAA’s rulemaking actions and gathered
information related to contracts and expenditures in support of various rulemaking
initiatives and the slot auctions. We also reviewed e-mails and other communications
within the Department and examined internal documents. Our auditors, investigators,
and legal staff interviewed 16 high-level FAA and DOT officials to determine how
the policy debate and rulemaking evolved. Finally, we reviewed the legal issues
associated with the rulemaking initiatives, Antideficiency Act, Purpose Statute, GAO
and DOJ opinions, and lawsuits filed in Federal court.




CC-2009-016
                                                                                      16



EXHIBIT C. OVERVIEW OF EVENTS RELATED TO SLOT AUCTIONS
AT THE NEW YORK AIRPORTS
Market-based solutions have long been viewed as a solution for alleviating
congestion, particularly at airports where building additional runways is not an option.
In 2006, FAA began taking formal steps to outline its plans for implementing market-
based solutions, such as peak hour pricing and slot auctions. Key FAA actions
include the following:

 • August 29, 2006: FAA issues a Notice of Proposed Rulemaking for congestion
   mitigation at LaGuardia airport. In the rule, FAA states that it lacks the statutory
   authority to conduct market-based approaches such as congestion pricing or
   auctions.

 • February 14, 2007: FAA submits its reauthorization proposal to Congress. The
   proposal includes two provisions for market-based mechanisms to alleviate
   congestion: one to permit auctions or congestion pricing for LaGuardia airport and
   one for a pilot program at up to 15 airports.

 • April 17, 2008: FAA issues a Supplemental Notice of Proposed Rulemaking for
   LaGuardia airport. FAA states that the August 2006 rule was incorrect concerning
   its authority to conduct slot auctions and proposed to assign the majority of slots to
   existing carriers and either retire or auction a small number of slots.

 • May 21, 2008: FAA issues a Notice of Proposed Rulemaking for JFK and Newark
   airports. FAA proposed to extend operations caps at the airports, assign a
   majority of slots to existing carriers, and auction a limited number of slots over a
   5-year period.

 • October 10, 2008: FAA publishes final rules regarding slot auctions for
   LaGuardia, JFK, and Newark airports. The rules were scheduled to be effective
   on December 9, 2008.

 • December 8, 2008: The U.S. Court of Appeals for the District of Columbia issues
   stay, which prevents the auctions from going forward.




CC-2009-016
The following page contains textual versions of the graphs and charts included in this
document. This page was not in the original document but has been added here to
accommodate assistive technology.
    Review of the Department of Transportation’s and the Federal Aviation
    Administration’s Actions Related to Slot Auctions at New York Airports

                       Section 508 Compliant Presentation

Figure. FAA Obligations and Expenditures Related to Slot Auction Contractors

FAA’s Office of Aviation Policy and Plans has relied on three contractors—GRA
Inc., Beaujolais, and Power Auctions—to perform work associated with analyzing the
rules and with the auctions. As shown in the figure, as of December 2, 2008, FAA
has obligated approximately $1.25 million to the three contractors but has actually
expended only a little more than $200,000.

 • GRA provided economic analysis services. FAA awarded the contract on
   January 29, 2008, and obligated $199,924. However, only $135,146 has been
   expended, leaving a balance of $64,778.

 • Beaujolais provided technical assistance in selecting an auction firm. FAA
   awarded the contract on June 10, 2008, and obligated $100,000. However, only
   $50,025 has been expended, leaving a balance of $49,975.

 • FAA again tasked GRA with economic analysis services, awarding this contract
   on July 29, 2008. FAA obligated $142,445 for this contract, but has only
   expended $32,453, leaving a balance of $109,992.

 • Power Auctions provided pre-auction services and auction execution. FAA
   awarded this contract on September 24, 2008, and obligated $808,000. However,
   FAA has not expended any of this money.
